UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1349
In re: George Poole
Plaintiff - Appellant
Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:06-mc-00595-RWS)
JUDGMENT
Before LOKEN, SHEPHERD, and STRAS, Circuit Judges.

This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule47A(a).
June 23, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1349
In re: George Poole
Appellant

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:06-mc-00595-RWS)
MANDATE
In accordance with the judgment of 06/23/2020, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
July 14, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

Case: 4:06-mc-00595-RWS Doc. #: 12 Filed: 01/23/20 Page: 1 of 2 PagelD #: 163

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
IN RE:
GEORGE POOLE

)
)
)

No. 4:06-mc-595-RWS

ORDER
This matter is before the Court on George Poole’s motion for leave to file a civil action.
(ECF No. 10). The motion will be denied.
Poole is subject to an en banc order of this Court that was entered after the Court
determined that he had abused the judicial process by repeatedly filing frivolous and malicious
litigation. See (ECF No. 1) (hereafter “Order.”) The Order enjoins Poole from filing any pro se
action, whether accompanied by the requisite filing fee or motion for leave to proceed in forma
pauperis, without first receiving leave of court. The Order specifies that, to seek such leave,
Poole must file a proposed complaint alleging that he has been recently subjected to an
actionable civil wrong or constitutional deprivation, or that he is about to be subjected to a
constitutional deprivation by reason of the threat of an immediate, extraordinary and irreparable
physical harm. In addition, the proposed complaint must be supported by affidavits that set forth,
clearly and specifically, the facts giving rise to the complaint.
With the instant motion, Poole has attached a proposed complaint against defendant
Reliable Life Insurance Company. Therein, Poole invokes this Court’s diversity jurisdiction. He
avers that he is a Missouri citizen, and that the defendant is incorporated in Missouri. He claims
the amount in controversy is $75,000. In setting forth his claims for relief, Poole alleges that one
“Agent Olson,” also a Missouri resident, gave him incorrect information about a life insurance
policy, and about whether Poole could obtain a loan against it.

Case: 4:06-mc-00595-RWS Doc. #: 12 Filed: 01/23/20 Page: 2 of 2 PagelD #: 164

Even if the Court were to grant the instant motion, the complaint would be subject to
dismissal for lack of jurisdiction. The claims Poole purports to assert do not arise under the
Constitution, laws, or treaties of the United States. Therefore, this Court would not have
jurisdiction pursuant to 28 U.S.C. § 1331. While Poole invokes this Court’s diversity
jurisdiction, he avers he and the defendant are citizens of the same state, and he alleges an
amount in controversy below the jurisdictional threshold. Therefore, this Court would not have
jurisdiction pursuant to 28 U.S.C. § 1332. As a result, the Court will deny Poole leave of court to
file the proposed civil action.
Accordingly,
IT IS HEREBY ORDERED that Poole’s motion for leave to file a civil action (ECF No.
10) is DENIED.
Dated this 23rd day of January, 2020.

RODNBY W. SIPPED^
UNITED STATES DISTRICT JUDGE

2

Case: 4:06-mc-00595-RWS Doc. #: 14 Filed: 02/12/20 Page: 1 of 2 PagelD #: 178

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
IN RE:
GEORGE POOLE

)
)
)

No. 4:06-mc-595-RWS

ORDER
This matter is before the Court on George Poole’s motion for reconsideration of this
Court’s denial of his motion for leave to file a civil action. The motion will be denied.
Poole is subject to an en banc order of this Court that was entered after the Court
determined that he had abused the judicial process by repeatedly filing frivolous and malicious
litigation. See (ECF No. 1) (hereafter “Order.”) The Order enjoins Poole from filing any pro se
action, whether accompanied by the requisite filing fee or motion for leave to proceed in forma
pauperis, without first receiving leave of court. The Order specifies that, to seek such leave,
Poole must file a proposed complaint alleging that he has been recently subjected to an
actionable civil wrong or constitutional deprivation, or that he is about to be subjected to a
constitutional deprivation by reason of the threat of an immediate, extraordinary and irreparable
physical harm. In addition, the proposed complaint must be supported by affidavits that set forth,
clearly and specifically, the facts giving rise to the complaint.
On January 23, 2020, Poole filed a motion seeking leave to file a civil action, along with
a proposed complaint purporting to sue Reliable Life Insurance Company. He asserted claims
arising under state law, he averred that he lived in Missouri and that the defendant was
incorporated in Missouri, and he alleged an amount in controversy below the jurisdictional
threshold. Upon review of the proposed complaint, the Court determined Poole should not be

Case: 4:06-mc-00595-RWS Doc. #: 14 Filed: 02/12/20 Page: 2 of 2 PagelD #: 179

granted leave to file a civil action because the complaint would be subject to dismissal for lack of
jurisdiction. The Court entered an order denying Poole’s motion.
In the instant motion, Poole seeks reconsideration of that order, arguing that Kemper
Insurance Company owns Reliable Life Insurance Company and is incorporated in Illinois.
However, Kemper Insurance Company is not the same entity as defendant Reliable Life
Insurance Company. Also, as previously stated, Poole alleged an amount in controversy below
the jurisdictional threshold.
Accordingly,
IT IS HEREBY ORDERED that George Poole’s motion for reconsideration (ECF No.
13) is DENIED.
Dated this 12th day of February, 2020.

rodneJy w. sippel
UNITED STATES DISTRICT JUDGE

2

